                                                       NATIONAL SCIENCE FOUNDATION 

                                                        OFFICE OF INSPECTOR GENERAL 

                                                          OFFICE OF INVESTIGATIONS 


                                                CLOSEOUT MEMORANDITM

 Case Number: AI0080068                                                                      Page 1 of 1



                Our office reviewed an allegation of copied text in the subject'sl proposal2. The subject
         responded to our inquiry letter and stated that: 

                1)      The plagiarism was due to inexperience. 

                2)      The corporation is primarily "an [commercial services] finn." 

                3)      There was no intent to plagiarize. 

                4)      The Phase II proposat3 likely contained similar errors. 

         We then reviewed the Phase II proposal at the subject's suggestion and did not find any
         substantive plagiarism.

                 The subject's responses presented a number of factors mitigating the elements of the
         offense. One substantive factor was that the company is an "operational [commercial services]
         firm" and not a research institution. Most of the employees have bachelor's degrees and are not
         scientific researchers. 4 Therefore it is reasonable to conclude that the subject was not familiar
         with the ethical research practices expected by NSF. In addition, the Phase II proposal did not
         contain a substantial amount of plagiarism, indicating there was no pattern. Based on the
         evidence in this case, we believe the subject was careless in his actions and therefore a full
         investigation is not warranted. Given the carelessness of the author's actions and the lack of
         research experience, we have written the PI a questionable research practices letter.

         Accordingly, the case is closed.




         2
         3

         4One                       has a Master's degree. 

         not employed by the company. 





NSF DIG Form 2 (1lI02)
